@QCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

GERTRUDE PARKER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5334 words, excluding the parts that are exempted by :
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska & Cha
RENEE J. GOSS 9. ¢ ecdbtin= ‘6
Notary Public

‘My Comm. Exp. September 5, 2023
Affiant 41435
